OIG Investigative Reports, Sacramento Woman Pleads Guilty to Participating in Federal Student Loan Fraud Ring
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney Benjamin B. Wagner
Eastern District of California
For Immediate Release
Monday, September 27, 2010
www.usdoj.gov/usao/cae
Contactt: Lauren Horwood
(916) 554-2706
usacae.edcapress@usdoj.gov
Docket #: 2:09-CR-00422-WBS
SACRAMENTO WOMAN PLEADS GUILTY TO PARTICIPATING IN FEDERAL STUDENT LOAN FRAUD RING
SACRAMENTO, Calif. — United States Attorney Benjamin B. Wagner announced today that, Jewel Minor, 24, of Sacramento, pleaded guilty today before Senior United States District Judge William B. Shubb to a conspiracy to commit student loan fraud.
This case is the product of an extensive investigation by the United States Department of Education, Office of the Inspector General and is being prosecuted by Assistant United States Attorney Jean M. Hobler.
Also charged in the case are Nakesha Sharrieff, aka Takiyah Raheem, aka Aysia Hanifah Kahan, 23; Thomas Keys, 23; Hoa Tasha Kelly, aka Tasha Kelly, 24; and Teaona Williams, 25; all of Sacramento. Co-defendant Jarmal Duplessis, 22, pleaded guilty on August 9, 2010, and is expected to be sentenced on November 4, 2010.
According to the guilty plea, Minor admitted that in June 2008, Teaona Williams recruited her to be a “straw student,” obtaining student loan funds without going to school. Williams introduced Minor to Sharrieff, who signed Minor up for student loan funds. Minor’s checks were sent to an address rented by co-defendant Hoa (Tasha) Kelly. Minor met Sharrieff at a bank, Sharrieff gave Minor the checks in an envelope that had Minor’s “cut” of the proceeds written on it. Minor cashed the checks, then split the money with Sharrieff. Minor agreed to and did recruit additional students for Sharrieff in exchange for a portion of the money obtained. Minor also let Sharrieff use Minor’s address to receive checks for other straw students, in exchange for additional payment. After Minor became involved in the conspiracy, the scheme netted approximately $118,000 in federally provided or insured student loan funds.
Minor is scheduled to be sentenced by Judge Shubb on December 13, 2010, at 8:30 a.m. She faces a maximum sentence of five years in prison, a $250,000 fine, or both. The actual sentence, however, will be determined at the discretion of the court after consideration of any applicable statutory factors and the Federal Sentencing Guidelines, which take into account a number of variables.
As to the charged defendants, the charges are only allegations and the defendants are presumed innocent until and unless proven guilty beyond a reasonable doubt."
Printable view
Last Modified: 09/29/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov